No.__________
IN THE SUPREME COURT OF THE UNITED STATES
JUAN LIRA-SALINAS, PETITIONER
V.

UNITED STATES OF AMERICA
_____________
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

_____________
CERTIFICATE OF SERVICE

_____________
The undersigned, an attorney and a member of the Bar of this Court, certifies that
pursuant to Supreme Court Rule 29.3 he served Juan Lira Salinas’s Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari on Counsel for the United
States:
The Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5614
Washington, D.C. 20530
(202) 514-2201
Service was made by enclosing a copy of the Motion and a copy of the Petition in an
envelope addressed to the Acting Solicitor General and then depositing the envelope in the
United States mail at San Antonio, Texas, on September 15, 2021. A copy of the petition
was also mailed to Assistant U.S. Attorney Carmen Castillo Mitchell at her office, 100

Louisiana, Suite 2300, Houston, Texas 77002. Counsel further certifies that all parties
required to be served have been served.

/s/ PHILIP J. LYNCH
Counsel of Record for Petitioner

